HHS/OIG, Audit - "Hospital Patient Transfers Paid as Discharges Under
State Medicaid Programs," (A-05-03-00014)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Hospital Patient Transfers Paid as
Discharges Under State Medicaid Programs," (A-05-03-00014)
June 29, 2005
Complete
Text of Report is available in PDF format (316 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to (1) consolidate the results of four
prior State Medicaid agency reports on hospital patient transfers billed as
discharges and (2) review Medicaid reimbursement policies for unaudited States
and the District of Columbia to determine whether overpayments could occur if
transfers were incorrectly coded as discharges.  North Carolina, Illinois, New
York, and Indiana all have Medicaid payment provisions similar to the Medicare
prospective payment system and our audits of those States identified
overpayments of approximately $6.4 million ($3.6 million Federal share) for
hospital patient transfers incorrectly reported as discharges and additional
potential overpayments of $3.7 million ($1.9 million Federal share).  We
evaluated other Medicaid State plans to identify States that prospectively pay
for inpatient services and limit payment for transfers.
We recommended that CMS:  (1) monitor the recovery of identified and
potential overpayments described in our 4 State-specific reports and (2)
encourage the 25 States and the District of Columbia to consider performing
focused postpayment assessments of hospital discharges and to recover
overpayments for transfers inappropriately billed as discharges.  CMS agreed
with our recommendations.